Memorandum from the Office of the Inspector General



November 10, 2010

Robert M. Deacy, Sr., LP 5D-C

FINAL REPORT – INSPECTION 2010-13105 – STABILITY ASSESSMENT PROCESS
REVIEW



Attached is the subject final report for your review. This report does not include any
recommendations and is to be used for informational purposes only. Accordingly, no
response is necessary.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Greg R. Stinson, Acting Director, Inspections, at
(865) 633-7367. We appreciate the courtesy and cooperation received from your staff
during this review.



Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

GRS:NLR
Attachment
cc (Attachment):
    Robert J. Fisher, LP 3K-C                         Richard W. Moore, ET 4C-K
    Michael B. Fussell, WT 9B-K                       David R. Mould, WT 7B-K
    Peyton T. Hairston, Jr., WT 7B-K                  Emily J. Reynolds, OCP 1L-NST
    John C. Kammeyer, LP 5D-C                         John M. Thomas III, MR 3A-C
    Tom D. Kilgore, WT 7B-K                           Robert B. Wells, WT 9B-K
    William R. McCollum, Jr., LP 6A-C                 Wendy Williams, WT 9B-K
    Annette L. Moore, LP 3K-C                         OIG File No. 2010-13105
             Tennessee Valley Authority
             Office of the Inspector General
 

Inspection Report
     



                                                 

                                                 

 

 

 

 
STABILITY
 


ASSESSMENT
PROCESS REVIEW
 




 

 
 
 

 
                        Inspection 2010-13105
                        November 10, 2010
Office of the Inspector General                                                                   Inspection Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY ..................................... 3

FINDINGS ......................................................................................................... 4

       TVA IS TAKING STEPS TO IMPROVE ASH MANAGEMENT
       GOVERNANCE ........................................................................................... 4

       TVA HAS IMPLEMENTED ACTIONS TO AFFECT CULTURE
       CHANGE ...................................................................................................... 6

       TVA HAS TAKEN STEPS TO EVALUATE THE STABILITY OF ASH
       IMPOUNDMENTS ........................................................................................ 8

       TVA HAS TAKEN IMMEDIATE ACTIONS TO REMEDIATE RISKS
       RELATED TO ASH POND STABILITY ..................................................... 13
 
       TVA HAS TAKEN ACTIONS TO ADDRESS ASH MANAGEMENT
       DEFICIENCIES .......................................................................................... 15
 
       MANAGEMENT'S COMMENTS ON DRAFT REPORT .............................. 19


APPENDIX
MEMORANDUM DATED SEPTEMBER 28, 2010, FROM ROBERT M. DEACY
TO ROBERT E. MARTIN




Inspection 2010-13105
             Inspection 2010-13105 – Stability Assessment Process
             Review
                               EXECUTIVE SUMMARY

Why the OIG Did This Review
 The Office of the Inspector General (OIG) and a report prepared by
 McKenna Long and Aldridge, LLP identified weaknesses in Tennessee
 Valley Authority's (TVA) culture and the coal ash management program.
 This review was initiated to assess and report on (1) the appropriateness
 of TVA processes and (2) completed and planned actions, pertaining to
 culture change, stability assessments of TVA ash impoundments, and ash
 management.


 The objectives of this review were to determine what processes TVA has
 followed since the Kingston Fossil Plant ash spill to address
 (1) deficiencies in ash management governance, (2) cultural issues
 identified, (3) stability of the other coal ash impoundments, and
 (4) deficiencies in the coal ash management program. The scope of this
 review included any and all information regarding coal ash management
 and risk.


What the OIG Found
 In summary, we found that since the Kingston Fossil Plant ash spill, TVA
 is taking appropriate actions to (1) improve ash management governance,
 (2) drive culture change, (3) evaluate the stability and corresponding
 safety factors pertaining to ash impoundments, (4) remediate risks, and
 (5) identify and address ash management deficiencies. Specifically, TVA
 has:


     Decided to include coal ash impoundments under the Dam Safety
      Program to increase governance and utilize the expertise of TVA's
      independent Hydro Review Board in assessing the safety and stability
      of coal ash impoundments.

                                                                             Page i
Office of the Inspector General                                             Inspection Report



         Taken action to drive organizational culture change including (1) hiring
          an independent cadre of professionals to assess the TVA culture,
          (2) instituting an organizational effectiveness initiative, and
          (3) reorganizing to improve accountability.

         Hired Stantec, Inc., to evaluate the stability of facility ash
          impoundments and has established an appropriate evaluation and
          remediation process.

         Taken immediate action to improve stability and remediate risks
          pertaining to many TVA coal ash impoundments.

         Compiled a gap analysis of all recommendations for TVA from all
          relevant review sources to ensure all ash management problem areas
          are addressed. The development and implementation of the quality
          assurance/quality control processes and the development of ash
          management policies and procedures are examples of key actions
          taken.

    While TVA has made significant progress to date, it is important to note
    this is a long-term project that TVA must continue to make a priority.



  Management's Comments on Draft Report
    TVA management concurred with the substance of the draft report and
    provided some administrative and clarifying comments for our consideration.
    These comments were reviewed and incorporated as appropriate.
    Management's complete comments are included in the Appendix to this
    report.




Inspection 2010-13105                                                                 Page ii
Office of the Inspector General                                         Inspection Report


BACKGROUND
On Monday, December 22, 2008, shortly after midnight, a retention wall for an
ash containment area at the Kingston Fossil Plant failed. The failure resulted in
approximately 5.4 million cubic yards of coal ash sludge to be released. The
Emory River was impacted by the spill, along with approximately 300 acres of the
Watts Bar Reservoir. In addition, a large number of homes and businesses were
affected by the spill. Tennessee Valley Authority (TVA) is diligently working to
clean up the spilled ash. To date, TVA has 75 contractors associated with the
cleanup efforts. Ash is currently being dredged out of the river, dewatered
on-site, and sent by rail to Arrowhead Landfill in Perry County, Alabama.

TVA's Board of Directors retained McKenna Long and Aldridge, LLP (McKenna)
after the spill to advise the Board on legal issues pertaining to the spill. The
Board also asked McKenna to prepare a factual report of the Kingston spill with
regard to cultural issues that may have contributed to the spill. McKenna began
their review in early January 2009 and on July 21, 2009, submitted "A Report to
the Board of Directors of the TVA Regarding Kingston Factual Findings" that
contained, among others, the following findings:

    A lack of clarity and accountability for ultimate responsibility
    A lack of standardization, training, and metrics
    Siloed responsibilities and poor communication
    A lack of checks and balances
    A lack of prevention priority and resources
    Reactive instead of proactive "fixes"

In a report issued by the Office of Inspector General (OIG) on July 23, 2009,
titled "Review of the Kingston Fossil Plant Ash Spill Root Cause Study and
Observations About Ash Management," we noted several important findings
including:

   TVA failed to investigate and report management practices that contributed to
    the Kingston spill.
   TVA could have possibly prevented the Kingston spill if it had taken
    recommended corrective actions.
   AECOM overemphasized the "slimes" layer as a trigger for the Kingston spill,
    which could limit corrective actions.
   TVA's enterprise risk management program did not adequately address
    known risks associated with ash impoundments.
   The culture at TVA's fossil fuel plants impacted ash management.


Inspection 2010-13105                                                             Page 1
Office of the Inspector General                                        Inspection Report


McKenna's and the OIG's reports identified weaknesses in TVA's culture and the
coal ash management program. This review was initiated to assess and report
on the appropriateness of TVA processes and completed and planned actions,
pertaining to culture change, stability assessments, and ash management.

Ash management is related to significant risks identified in TVA's enterprise risk
management (ERM) system. An ERM system is designed to identify and
mitigate risks that could adversely affect the organization's ability to achieve its
mission and objectives. A strong and robust process for managing ash could
help reduce the risk of 8 of the 19 enterprise risks including:

   Catastrophic Accident
   Coal Ash Management
   Unplanned Revenue Loss
   Major Business Disruption
   Environmental Contamination
   Litigation
   Major Construction Project
   Customer/Stakeholder Relations




Inspection 2010-13105                                                            Page 2
Office of the Inspector General                                      Inspection Report


OBJECTIVES, SCOPE, AND METHODOLOGY
The objectives of this review were to determine what processes TVA has
followed since the Kingston Fossil Plant ash spill to address (1) deficiencies in
ash management governance, (2) cultural issues identified, (3) stability of the
other coal ash impoundments, and (4) deficiencies in the coal ash management
program. The scope of this review included information regarding TVA coal ash
management and risk. In order to achieve our objectives, we:

   Interviewed key TVA officials and contractors to determine TVA's processes
    and actions taken to (1) identify TVA's cultural problems and affect culture
    change, (2) assess and remediate the stability of the other impoundments,
    (3) address immediate stability issues at TVA ash impoundments, and
    (4) correct ash management deficiencies.
   Reviewed documentation to identify, verify, and assess the process taken to
    evaluate ash impoundment stability and make determinations regarding
    immediate remediation needs.
   Reviewed documentation for actions taken by TVA regarding the stability of
    ash impoundments to verify work undertaken/completed.
   Reviewed documentation and conducted interviews regarding the deficiencies
    and corresponding actions taken or planned regarding the ash management
    program.

This review was conducted in accordance with the "Quality Standards for
Inspections."




Inspection 2010-13105                                                          Page 3
Office of the Inspector General                                       Inspection Report


FINDINGS
In summary, we found that since the Kingston Fossil Plant ash spill, TVA is
taking appropriate actions to (1) improve ash management governance, (2) drive
culture change, (3) evaluate the stability and corresponding safety factors
pertaining to ash impoundments, (4) remediate risks, and (5) identify and
address ash management deficiencies. Specifically, TVA has:

   Decided to include coal ash impoundments under the Dam Safety Program to
    increase governance and utilize the expertise of TVA's independent Hydro
    Review Board in assessing the safety and stability of coal ash impoundments.
   Taken action to drive organizational culture change including (1) hiring an
    independent cadre of professionals to assess the TVA culture, (2) instituting
    an organizational effectiveness initiative, and (3) reorganizing to improve
    accountability.
   Hired Stantec, Inc., to evaluate the stability of facility ash impoundments and
    has established an appropriate evaluation and remediation process.
   Taken immediate action to improve stability and remediate risks pertaining to
    many TVA coal ash impoundments.
   Compiled a gap analysis of recommendations for TVA from all relevant review
    sources to ensure all ash management problem areas are addressed. The
    development and implementation of the quality assurance/quality control
    processes and the development of ash management policies and procedures
    are examples of key actions taken.

While TVA has made significant progress to date, it is important to note this is a
long-term project that TVA must continue to make a priority.

TVA IS TAKING STEPS TO IMPROVE ASH MANAGEMENT
GOVERNANCE

In our report titled "Review of the Kingston Fossil Plant Ash Spill Root Cause
Study and Observations About Ash Management," we noted that "we found
numerous memorandums dating from 1987 through 1996 where TVA internally
discussed whether ash ponds should fall under the Dam Safety Program. TVA
recognized that if dam safety guidelines were implemented, additional steps
would need to be taken, such as closely reviewing the existing inspection
procedures for compliance with dam safety requirements, performing additional
stability analyses, adding monitoring instrumentation, and instigating a drilling
and testing program. Some TVA managers and executives took the position that
managing ash ponds under the Dam Safety Program was unnecessary for
safety, and TVA was not technically required to do so. TVA ultimately did not
place the ash ponds under the Dam Safety Program."


Inspection 2010-13105                                                           Page 4
Office of the Inspector General                                       Inspection Report


Also in the report, the OIG's consultant Marshall Miller and Associates, Inc.,
reported that had TVA included ash ponds in the Dam Safety Program, including
performing customary geotechnical exploration, laboratory testing, and dike
seepage and stability analyses, the probability of identifying some or all of the
conditions that led to the Kingston failure would have increased significantly.
Since the spill, TVA has taken steps to (1) increase the governance structure
pertaining to ash management and (2) utilize the expertise of TVA's independent
three-member Hydro Review Board.

Governance Structure
Dam Safety, a group that previously was housed under River Scheduling, is
being established as a separate independent governance group. Previously, this
group had responsibility for all assets owned by the River Operations Group.
Dam Safety's new responsibilities will include providing a governance role over
coal ash impoundments in the TVA system.

The TVA Dam Safety Governance Group will be instituting guidance to delineate
expectations for asset owners and define the requirements for compliance with
Dam Safety guidelines. In summary, the Coal Combustion Products Projects
and Engineering Group and the Coal Combustion Projects Group will be
responsible for planning, operating, and maintaining the ash impoundments in
accordance with the requirements defined by Dam Safety.

Hydro Review Board
In compliance with the Federal Guidelines for Dam Safety, TVA Dam Safety
personnel meet regularly with the Hydro Review Board. These meetings have
typically occurred twice a year. The Hydro Review Board consists of three
internationally recognized experts in dam engineering. The members were
selected based on the depth and breadth of their academic and/or professional
involvement in the field of dam engineering and their experience related to TVA
dam safety projects and programs. They participate in periodic reviews of the
analysis, design, inspection, instrumentation, construction, and rehabilitation of
TVA dams and locks. The TVA Hydro Review Board's responsibilities include:

   Assuring consistency with industry practice and standards.
   Assuring structural, hydrologic, and seismic adequacy.
   Improving and integrating new developments/philosophies into TVA's Dam
    Safety Program.
   Finding practical and innovative solutions to dam engineering problems.

The Hydro Review Board has recently begun meeting regularly with the Coal
Combustion Products Group. They have been providing guidance on topics such
as seismic stability analysis and impoundment closure plans. TVA's plans call for
continuing use of the Hydro Review Board to provide guidance and services to
the Coal Combustion Product Group with regard to ash impoundments.

Inspection 2010-13105                                                           Page 5
Office of the Inspector General                                        Inspection Report


TVA HAS IMPLEMENTED ACTIONS TO AFFECT CULTURE
CHANGE
In our report titled "Review of the Kingston Fossil Plant Ash Spill Root Cause
Study and Observations About Ash Management," we found that "ash
management at TVA reflected a culture that ash was unimportant. This resulted
in significant weaknesses in ash management practices across TVA including:
(1) a failure to implement recommended corrective actions that could have
possibly prevented the Kingston spill; (2) a lack of policies and procedures;
(3) poor maintenance; (4) a lack of specialized training; (5) multiple
organizational structure changes; (6) inadequate communication; and (7) a
failure to follow engineering best practices."

Based on OIG reports and other external TVA reviews, it became evident that
culture change was essential across TVA to improve accountability,
communication, risk management, and operational effectiveness. While it is too
early to fully assess the result of this culture change effort, TVA took immediate
action to address the effectiveness and efficiency of operations.

Specifically, TVA implemented appropriate actions to assess the culture and
drive change management. Actions included (1) hiring an independent cadre of
professionals to assess the TVA culture (i.e., McKinsey and Company, Inc.),
(2) instituting an organizational effectiveness initiative, and (3) reorganizing to
improve accountability.

McKinsey and Company, Inc.
TVA hired a third-party international management consulting firm, McKinsey and
Company, Inc. (McKinsey), to complete a detailed review of TVA's systems,
standards, controls, and culture. This addressed an OIG recommendation that
TVA should dedicate a cadre of professionals to the task of remediating TVA's
cultural issues.

McKinsey was retained by TVA as directed by the Board of Directors in the July
2009 Board meeting. The scope of McKinsey's assessment included
determining how to transform the organization with regard to governance and
accountability, organizational structure, operating policy and procedures, and
institutional capabilities.

Organizational Effectiveness Initiative
TVA has begun an Organizational Effectiveness Initiative (OEI) that is meant to
create a unified structure throughout TVA. The OEI aims to strengthen TVA's
organizational capabilities to deliver on its mission and strategy, as well as to
improve organizational effectiveness, cooperation, and engagement within TVA.

The OEI has five main goals to perform in order to achieve its TVA mission.
Those goals are to (1) set a clear strategic vision, (2) build talent and drive
accountability, (3) run, maintain, and improve operational performance,
Inspection 2010-13105                                                             Page 6
Office of the Inspector General                                                         Inspection Report


(4) provide robust financial stewardship, and (5) tackle significant multi-
stakeholder strategy issues.

In order to achieve those goals, the OEI team has set up five different councils.
Those councils are the (1) Executive Council, (2) People and Performance
Council, (3) Finance Council, (4) Strategy and External Relations Council, and
(5) Operating Council. Each of these councils have been tasked with achieving
one of the goals, however, they must all work together in order to fulfill TVA's
mission. The officers on these councils report directly to the Chief Executive
Officer.

One of the OEI team's tasks was to restructure TVA to make the organizational
structure more efficient and to increase communication lines. The specific
mandate was to flatten the TVA organization by reducing levels and increasing
spans of control that will improve communication and accountability. The new
organizational structure is a tiered structure with uniform position titles across the
entire organization so that each person's role in the company is clearly defined.

Organizational Accountability Pertaining to Ash Management
In addition to the overall TVA Organizational Effectiveness Initiatives, TVA has
taken several actions management believes are necessary to ensure the support
for sound policies and procedures related to ash management. In essence,
these actions are deemed significant by TVA management in not only correcting
failures and deficiencies, but in addressing management improvement initiatives.

In summary, TVA management has made significant management and
philosophical changes which are driving the development and implementation of
(a) more detailed and rigorous policies and procedures for storing, handling, and
maintaining ash and ash disposal facilities and (b) a comprehensive program for
future coal combustion product remediation and conversion.

In fiscal year 2009, the Clean Strategies and Project Development organization1
was established to help position TVA to meet the many challenges following the
environmental event at Kingston. To strengthen the focus on TVA's coal
combustion by-products and clearly establish accountability, the Coal
Combustion Products Projects and Engineering Group and the Coal Combustion
Management Group were created within Clean Strategies and Project
Development.2

      Coal Combustion Products Projects and Engineering Group – Responsibilities
       include evaluating the physical integrity of all TVA ash and gypsum disposal


                                                            
1
     The Clean Strategies and Project Development organization has since changed to Fossil Generation,
     Development, and Construction.
2
     Further defining of organizational responsibilities now finds the Coal Combustion Products and
     Engineering Group and the Coal Combustion Management Group residing under Fossil Generation,
     Development, and Construction. 
Inspection 2010-13105                                                                             Page 7
Office of the Inspector General                                         Inspection Report


    facilities, prioritizing projects across the system, and creating a rigorous
    routine inspection program.
   Coal Combustion Management Group – Responsibilities include the
    development and implementation of a consistent fleet strategy to address
    handling of all TVA coal combustion products.

While it is too early to determine whether the reorganizations will completely
promote and drive culture change, it does dictate that all elements of ash
management (environmental, engineering, and operations/maintenance) are now
under the control of a single organization with its own stand-alone budget. This
should provide a control mechanism to reduce the risk that funding needed for
ash management is not redirected to address other capital or operating and
maintenance needs. The capital program to convert TVA's 6 coal-burning plants
currently using wet fly ash systems to dry fly ash systems and convert all
11 fossil plants to dry bottom ash systems resides in Fossil Generation,
Development, and Construction. This program would close 18 existing ash and
gypsum ponds. The projected cost of the plan is $1.5 billion to $2 billion over the
next eight to ten years.

TVA HAS TAKEN STEPS TO EVALUATE THE STABILITY OF ASH
IMPOUNDMENTS
TVA commissioned the engineering firm Stantec, Inc., to inspect, evaluate, and
make recommendations for the stability of all coal combustion by-product storage
facilities at all of TVA's fossil plants. Stantec began this work in January 2009.
One area of Stantec's global services includes geotechnical engineering.
Stantec states:

         Stantec's geotechnical services are focused on solving our most
         pressing infrastructure construction and rehabilitation issues,
         including dams, and levee, transportation facilities, abandoned mine
         lands landfills, waterfront engineering and diving, byproduct
         engineering for electric utilities, and geotechnical program
         management or national and international clients. Stantec's
         comprehensive geotechnical services range from field explorations
         and laboratory testing to the design and construction management
         of complex geotechnical structures.

Our (1) review of documentation, (2) peer reviews of Stantec construction and
modification engineering design and laboratory work, and (3) TVA site walk-
downs find Stantec engaging in such work for TVA. Specifically, Stantec's TVA
work pertaining to impoundment stability analyses consists of a four-phase
approach that is guiding immediate remediation activity, future planned actions,
and changes to TVA coal combustion impoundment management.
Stantec facilitates work management and tracking by providing TVA with a
weekly update which addresses, among other things, progress on ongoing
project work and activities to be performed in the future. In conjunction with TVA
Inspection 2010-13105                                                              Page 8
Office of the Inspector General                                        Inspection Report


impoundment facility assessments, remediation/construction work, and the
closure process, Stantec has also developed an approach to evaluate TVA's coal
combustion by-products storage facilities for seismic events.

Phase 1
Stantec's Phase 1 reports were issued on June 24, 2009. Phase 1 geotechnical
engineering work was broken into two parts—1a and 1b. Phase 1a consisted of
on-site interviews and site walk-over. The objective of Phase 1a was to look for
visible or obvious signs of distress or concerns that may require short-term
corrective actions and to provide data for the prioritization of Phase 2 activities.
The walk-overs were performed by teams of at least two engineers. The teams
included at least one licensed engineer with experience in dam design, dam
safety, and/or geotechnical engineering.

After reviewing documentation and becoming familiar with the facility and TVA
practices, the teams returned to the sites to conduct Phase 1b. This phase
consisted of:

  Additional interviews with plant personnel to learn more about the history,
   maintenance, operations, and issues at each facility.
  Completing field activities, including measurements of embankment slopes,
   crest widths, and freeboard. Stantec also further noted the extent of
   seepage, slope instability, erosion, sparse vegetation, trees, animal burrows,
   poor surface drainage, and other relevant features.

Phase 2
Phase 2 consists of detailed engineering studies and analysis at each facility,
including (a) geotechnical explorations, (b) stability, hydrologic, and hydraulic
analysis, (c) remediation engineering and workplan development, and
(d) conceptual designs. The order in which the evaluations were performed was
based on Stantec's opinion of the risk associated with each facility. Phase 2 has
been completed. For Phase 2, Stantec submitted to TVA all 16 final reports. The
following chart shows when the final reports were submitted to TVA.




Inspection 2010-13105                                                            Page 9
Office of the Inspector General                                    Inspection Report


                   FINAL GEOTECHNICAL STABILITY EVALUATION
                            REPORTS FROM STANTEC

                                                   FINAL
       PLANT              AFFECTED AREA           REPORT       STATUS
                                                   DATE
                    East Ash Pond Geotech                       Final
         ALF                                      03/25/10
                    Stability Evaluation Report               Received
                    East Dike Stilling Pond                     Final
         ALF                                      02/04/10
                    Geotech Evaluation Report                 Received
                    Ash Stack/Gyp Stack/Main                    Final
         BRF                                      04/12/10
                    Ash Pond Evaluation Report                Received
                    Bottom Ash Pond 4                           Final
         COF                                      01/22/10
                    Geotech Evaluation Report                 Received
                    Area 5 Dry Stack Geotech                    Final
         COF                                      03/26/10
                    Evaluation Report                         Received
                    Gypsum Stack/Dry Ash
                                                                Final
         CUF        Stack Geotech Evaluation      06/11/10
                                                              Received
                    Report
                    Ash Pond Geotech                            Final
         CUF                                      03/29/10
                    Evaluation Report                         Received
                    Fly Ash E/Bottom Ash A                      Final
         GAF                                      05/27/10
                    Geotech Evaluation Report                 Received
                    Ash Disposal/Bottom
                                                                Final
          JSF       Ash Geotech Evaluation        02/08/10
                                                              Received
                    Report
                    Active Ash Pond Dike                        Final
         JOF                                      04/13/10
                    Geotech Evaluation Report                 Received
                    Scrubber Sludge Complex                     Final
         PAF                                      06/14/10
                    Geotech Evaluation Report                 Received
                    Peabody Ash Pond Geotech                    Final
         PAF                                      02/09/10
                    Evaluation Report                         Received
                    Ash Pond and Dry
                                                                Final
         SHF        Stack Geotech Evaluation      07/14/10
                                                              Received
                    Report
                    Intake Dredge Cell Geotech                  Final
         SHF                                      03/09/10
                    Evaluation Report                         Received
                    Ash Pond Complex Geotech                    Final
         WCF                                      02/04/10
                    Evaluation Report                         Received
                                                                Final
         WCF        Gypsum Stack Complex          02/05/10
                                                              Received

 
Phases 3 and 4
Phases 3 and 4 have been initiated, Phase 3 consists of facility design and
permitting, and Phase 4 consists of a detailed training program. Phase 3 has
Inspection 2010-13105                                                      Page 10
Office of the Inspector General                                        Inspection Report


evolved from the initial objective of developing engineering plans for
recommendations developed in Phase 2 to something more comprehensive.
Phase 3 now consists of development and approval of construction workplans
and the capital project work necessary for (1) remediation of issues needing
immediate attention, (2) improving stability and corresponding factors of safety,
and (3) future impoundment projects, including impoundment closure plans.

With regard to training, the initial dam safety inspection training has been
completed. TVA personnel who operate, inspect, and maintain the
impoundments have completed a training program designed to increase
awareness of dam failure modes, provide an understanding of what to look for in
their daily work, and to recognize structural distress. The class also includes
case histories, proper inspection procedures, and plant emergency procedures.
The class teaches that during an inspection the dike crest, freeboard, dike
slopes, dike toe areas, and outlet works should be evaluated. The training
proposes an inspection schedule that includes an informal daily and weekly
inspection by plant personnel, a formal monthly inspection by plant personnel, a
quarterly inspection by a TVA team and an annual inspection by Stantec. This
training module for about 300 employees was completed in September 2009. As
public safety officers, the TVA Police also received this training. A
comprehensive Coal Combustion Products training plan is scheduled to be
developed before October 2010.

Stantec's TVA Facility Assessment Weekly Report
To track progress of Stantec's approach to stability analysis and corrective
action, Stantec submits a weekly report to TVA. The report contains a number of
documents including (1) a Facility Risk/Hazard Matrix, which incorporates
information from another contractor (URS) that is also performing impoundment
enhancement and construction work, (2) the Stantec Geotechnical Exploration
Status at TVA Fossil Plants, (3) the status of TVA Facility Assessment Program,
Stantec Construction Workplans, and (4) the TVA Facility Assessment Weekly
Report.

Facility Risk/Hazard Matrix
The facility matrix lists the impoundment facilities at each plant, the found factors
of safety, the current factors of safety, and key actions to improve the current
factors of safety and/or dam safety hazard classification. The factors of safety
are color coded to easily show which facilities meet the minimum factor of safety
of 1.5 and which ones need additional work.




Inspection 2010-13105                                                          Page 11
Office of the Inspector General                                            Inspection Report


Stantec Geotechnical Exploration Status at TVA Fossil Plants
The geotechnical exploration status shows the drillings that have been completed
and are planned for each facility, including completed boring footage. It also
listed the planned and completed inclinometer and piezometer installations and
number of cone penetrometer tests at each facility.

TVA Facility Assessment Program, Stantec Construction Workplans
The weekly workplan update lists the workplans that have been completed, are in
progress, and that are proposed for each TVA plant. The update also identifies
what part of the facility will be modified. For example, the update notes that for
Bull Run Fossil Plant Workplan No.1 (Workplan BRF-090414-WP1), the facilities
to be modified are the gypsum and dry fly ash stacks. The repairs are to be
made to the gypsum stack depression and fly ash dry stack wet area.

TVA Facility Assessment Weekly Report
The facility assessment report is a very comprehensive report providing detailed
information by TVA site. Information provided in the report may include services
performed during the week pertaining to spillway replacement, geotechnical
exploration and stability analysis, the instrumentation monitoring program, and
other site repairs, observations, and discoveries. The report also identifies:

   Capital improvement projects services performed for the respective week.
   Anticipated tasks to be performed in upcoming weeks.
   Instrumentation Monitoring Program readings schedule and status.
   Current scope of work tasks and status.

Seismic Analysis
TVA recognizes there is potential for strong earthquakes to occur within the
region, and there is a tangible risk for seismic failure at each closed coal
combustion by-products facility. These risks, including the likelihood and
consequences of failure, must be understood to effectively manage TVA's
portfolio of by-product storage sites.

Seismicity in the TVA service area is attributed to the New Madrid fault and
smaller, less concentrated crustal faults. These two earthquake scenarios
generate significantly different seismic hazards at each locality and will be
considered independently within each facility risk assessment. At each closed
by-product facility, TVA's plans call for:

   Potential seismic failure modes to be evaluated in sequence.
   Instability due to soil liquefaction, slope instability due to inertial loading, and
    other potential failure mechanisms to be addressed.
   Seismic performance to be evaluated for differing earthquake return periods
    until a limiting (lowest return period) event that would cause failure is
    obtained.
Inspection 2010-13105                                                              Page 12
Office of the Inspector General                                          Inspection Report


After the smallest earthquake that would cause failure at each site is determined,
they will look at the likelihood of that earthquake occurring. The assessment of
risk will also include estimates of potential consequences, as well as costs to
mitigate the risks, that reflect the unique setting of the individual storage facility.
At that point there will be an estimated probability of a seismic event occurring
that would cause failure at each ash storage facility. These risks will be
incorporated into the enterprise risk management process so management can
chose to mitigate the risk or accept the risk based on the probability of
occurrence and cost.

Following the same general methodology, seismic risks will be estimated in two
phases. The near-term "Portfolio Seismic Assessment" will provide a rough
estimate of seismic risks. The likely performance of each facility will be
evaluated using simplified analyses, empirical methods, and the judgment of
experienced engineers. The results will establish a ranking of the relative risks
across the closure portfolio and also provide a preliminary picture of overall
seismic risk. For the subsequent "Facility Seismic Assessments," seismic
performance will be judged on the basis of site-specific data from the detailed
engineering analyses, which will be completed during the closure design process
for individual facilities.

TVA HAS TAKEN IMMEDIATE ACTIONS TO REMEDIATE RISKS
RELATED TO ASH POND STABILITY

TVA determined that it would be best to address stability concerns quickly rather
than waiting until all the geotechnical exploration and detailed analyses were
complete. Thus, they completed many initial remediation efforts at ash
impoundment facilities based on Stantec's initial inspections.

While Stantec has completed all of its geotechnical exploration, other detailed
analyses continue. Many critical remediation efforts have been completed or are
ongoing and have increased the factor of safety at the respective ash
impoundment. For example:

   Due to TVA's initial remediation efforts, the "as found" factors of safety for the
    various disposal facilities included ten impoundments with factors of safety at
    less than 1.3. To date, there are now only three impoundments with factors
    of safety less than 1.3.
   At Widows Creek Fossil Plant (WCF), because of a very low factor of safety
    and seepage, TVA took immediate actions rather than waiting on the more
    detailed analyses. Slopes have been flattened, and extensive stability actions
    have been completed. The pictures on the following page show the WCF
    gypsum stack prior to the initial remediation efforts and the WCF gypsum
    stack after the initial remediation efforts.



Inspection 2010-13105                                                            Page 13
Office of the Inspector General                         Inspection Report


WCF Gypsum Stack Prior to Initial Remediation Efforts




WCF Gypsum Stack After Initial Remediation Efforts




Inspection 2010-13105                                           Page 14
Office of the Inspector General                                      Inspection Report


   At Paradise Fossil Plant, because of the geotechnical and laboratory analysis,
    additional buttressing, armoring, and flattening were initiated for the Gypsum
    Complex. Work has been done to stabilize the Gypsum Complex dikes due
    to seepage, and work is ongoing.
   At Johnsonville Fossil Plant, the water level has been lowered, and a
    seepage collection system and new spillways have been installed.
   At Shawnee Fossil Plant, the exterior dike of the intake dredge cell has been
    stabilized and reconstructed.

During Phase 1 reviews, Stantec noted limited geotechnical instrumentation at a
majority of the facilities, and the presence of a program to routinely obtain
measurements was not found. Dam safety management of impoundments
should include an instrumentation program to monitor performance and condition
changes during operation of the facility. In general, instrumentation may consist
of piezometers to measure water levels, inclinometers and monuments to
monitor movement, and plates to monitor settlement. In response to the finding,
as of May 28, 2010, Stantec has installed 61 slope inclinometers and
471 piezometers to monitor performance.

TVA HAS TAKEN ACTIONS TO ADDRESS ASH MANAGEMENT
DEFICIENCIES
After the Kingston spill, TVA received numerous recommendations from various
groups, including the Office of the Inspector General, the TVA Board of Directors,
and McKenna Long and Aldridge LLP. To ensure that no recommendation and
concern went unaddressed, TVA created a gap analysis listing all
recommendations and concerns from all sources and determined which
recommendations overlapped. This gap analysis is a living document which is
updated as work progresses.

We reviewed a gap analysis, which shows work that has been completed and
work that is still ongoing. Some of the improvement areas pertain to:

   Programmatic documents.
   Standard processes/procedures.
   The environmental review process.
   The management of impoundments under Dam Safety.
   Documentation management.
   The quality assurance/quality control review process.
   Inspection reporting.
   Instrumentation monitoring.
   The Corrective Action Program.
Inspection 2010-13105                                                        Page 15
Office of the Inspector General                                                             Inspection Report


      Security enhancement.
      The budget process.
      Training program development.
      Communication plans.
      Integration of ash management into Enterprise Risk Management.
      Utilization of industry benchmarking and leading practices.
      Coal Combustion Product industry leadership.
      The cultural change management program.
      Emergency action plans.

Based on our review of the gap analysis and previous findings in this report, TVA
has made a good faith effort to track and address all recommendations received
from various groups since the Kingston spill. TVA is making progress on
addressing these recommendations and has plans in place to address the
remaining recommendations.

The development and implementation of quality assurance/quality control
processes and the development of ash management policies and procedures are
examples of key actions taken.

TVA Has Implemented Peer Review and Quality Assurance/Quality Control
Processes
TVA has implemented a quality assurance/quality control (QA/QC) process for
the analyses and remediation efforts at all TVA coal combustion by-product
storage facilities, as well as Dike C at Kingston. After Stantec completes its
stability analyses of each facility, a peer review will be conducted by one of three
contractors. For selected plants, the peer review will be conductedwith the
assistance of Dr. Gonzalo Castro.3 The peer reviewers offer changes to the
analyses, planned actions, or other recommendations as needed. This process
is intended to ensure that the most up-to-date and best engineering analyses
have been performed on the remaining impoundments.

Both Stantec and URS will perform remediation activities at various sites, with
another engineering firm peer reviewing their work. Management illustrated the
QA/QC process as follows:

      Several key projects at various sites were initially selected to have a third-
       party review performed.
      Coal Combustion Products Projects and Engineering Group sent the
       necessary data, test analyses, documents, and other needed information to
                                                            
3
     Dr. Gonzalo Castro is a civil engineer with more than 35 years of experience in geotechnical engineering.
     He is a recognized expert in seismic analysis and earthquake engineering.
Inspection 2010-13105                                                                                Page 16
Office of the Inspector General                                   Inspection Report


    AECOM, URS, or Geosyntec as appropriate for the QA/QC analysis to be
    completed.
   Coal Combustion Products Projects and Engineering Group then coordinated
    the review comments with Stantec and the third-party review company. TVA
    management stated several good comments were received on the projects,
    and the resolution of those comments was driven to completion by an
    assigned engineer.

As an outgrowth of the peer review and QA/QC process and findings, TVA
developed the Facility Risk/Hazard Matrix discussed above, which is updated
weekly. Throughout the analysis and remediation efforts, the QA/QC process
has caused some engineering assumptions and remediation actions to change.
This has caused changes to TVA's requirements to get the facilities factors of
safety to target. This matrix is a good example of TVA's process for peer QA/QC
reviews, as the matrix tracks actions taken, action to be taken, and changes in
factors of safety for each ash impoundment.

TVA Ash Management Policies and Procedures
Prior to the Kingston spill, TVA had no policies or procedures regarding the
handling and storage of coal combustion by-products. This resulted in the
management at each fossil plant implementing their own strategies for handling
and storing the coal combustion by-products created by their facility. In the
aftermath of Kingston, TVA hired URS to develop extensive coal combustion
by-product policies and procedures for TVA. URS has completed
comprehensive policies and procedures.

The OIG reviewed the URS draft policies and procedures. The proposed policies
and procedures cover such areas as:

   Descriptions of the TVA facilities.
   Description of Coal Combustion Product streams.
   Philosophy of operation.
   Ash management roles and responsibilities.
   Governing regulations and regulatory requirements.
   Environmental permits/permitting.
   Internal and external review protocols.
   Lessons learned.
   Coal Combustion Product management disposal capacity tracking and
    reporting.
   Safety program.
   Site security requirements.

Inspection 2010-13105                                                     Page 17
Office of the Inspector General                                                         Inspection Report


      Training program.
      Data management.
      Design criteria-regulatory standards.
      Reporting.
      Procedural requirements for construction.
      Closure requirements.
      Post-closure requirements.
      Emergency operations and contingencies.
      General operation information and operational responsibilities.
      Inspections, monitoring, and reporting.

One example of these new procedures is the inspections program TVA has
instituted to better monitor the condition of the facilities. The procedure requires
a daily inspection by the Routine Handling Operation & Maintenance (RHO&M)
foreman, weekly inspections by RHO&M supervisors, monthly inspections
performed by RHO&M construction managers, and quarterly inspections by
RHO&M program managers. Additionally, plans call for:

      Yearly inspections performed by a third-party engineering firm or the Dam
       Safety Group.
      A five-year inspection performed by a third-party engineering company.

Maximo4 will automatically generate work packages prior to inspection due dates.
The intent is for all work orders to be signed off, processed, and stored using
TVA document storage. In addition, to prepare the inspectors, Stantec has
completed an inspection training program at the various TVA facilities. Through
this program, Stantec trained TVA personnel, including plant personnel and TVA
Police, under dam safety guidelines. To date, 337 TVA personnel have received
the training.

Also, to allow for visible inspections of the dikes/slopes, vegetation control is now
required. Vegetation is scheduled to be cut frequently enough to limit the
vegetation height to 6-10 inches and limit the growth of bushes, vines, etc. The
plan is for vegetation growth on riprap slopes to be sprayed with herbicides on
regular scheduled intervals.

Based on our review of these policies and procedures, there has clearly been
significant improvement since the Kingston spill, when TVA had no policies and
procedures for ash management.


                                                            
4
     Maximo is the IBM software TVA uses for work management, corrective action, and the supply chain.
Inspection 2010-13105                                                                            Page 18
Office of the Inspector General                                       Inspection Report


MANAGEMENT'S COMMENTS ON DRAFT REPORT

TVA management provided some administrative and clarifying comments for our
consideration. These comments were incorporated; however, we modified the
report to identify the number of facilities with a factor of safety of less than
1.3 based on supporting documentation. Specifically:

   Management stated that there are currently only two facilities with a factory of
    safety of less than 1.3, however, the latest information reviewed by the OIG
    shows there are three.

Management's complete comments are included in the Appendix of this report.




Inspection 2010-13105                                                         Page 19
    APPENDIX
    Page 1 of 1




 
